<html>
<title> - HOW BEST TO IMPROVE OUR NATION'S AIRPORT PASSENGER SECURITY SYSTEM THROUGH COMMONSENSE SOLUTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    HOW BEST TO IMPROVE OUR NATION'S

                   AIRPORT PASSENGER SECURITY SYSTEM

                     THROUGH COMMONSENSE SOLUTIONS

=======================================================================

                               (112-111)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                                AVIATION

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
76-978                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
CHIP CRAVAACK, Minnesota             DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
LARRY BUCSHON, Indiana               JASON ALTMIRE, Pennsylvania
BILLY LONG, Missouri                 TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      HEATH SHULER, North Carolina
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         ALBIO SIRES, New Jersey
STEVE SOUTHERLAND II, Florida        DONNA F. EDWARDS, Maryland
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
RANDY HULTGREN, Illinois             EDDIE BERNICE JOHNSON, Texas
CHIP CRAVAACK, Minnesota, Vice       LEONARD L. BOSWELL, Iowa
    Chair                            TIM HOLDEN, Pennsylvania
BLAKE FARENTHOLD, Texas              MICHAEL E. CAPUANO, Massachusetts
BILLY LONG, Missouri                 MAZIE K. HIRONO, Hawaii
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
STEVE SOUTHERLAND II, Florida        ELEANOR HOLMES NORTON, District of 
JAMES LANKFORD, Oklahoma                 Columbia
JOHN L. MICA, Florida (Ex Officio)   NICK J. RAHALL II, West Virginia
REID J. RIBBLE, Wisconsin              (Ex Officio)
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Charles K. Edwards, Acting Inspector General, Department of 
  Homeland Security..............................................     5
Stephen M. Lord, Director, Homeland Security and Justice Issues, 
  Government Accountability Office...............................     5

                                Panel 2

Kenneth J. Dunlap, Global Director, Security and Travel 
  Facilitation, International Air Transport Association..........    20
Veda Shook, International President, Association of Flight 
  Attendants.....................................................    20
Charles Leocha, Director, Consumer Travel Alliance...............    20

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Charles K. Edwards...............................................    32
Stephen M. Lord..................................................    38
Kenneth J. Dunlap................................................    50
Veda Shook.......................................................    54
Charles Leocha...................................................    62

                       SUBMISSION FOR THE RECORD

Hon. John L. Mica, a Representative in Congress from the State of 
  Florida, request to submit:

    Majority investigative staff of the House Committee on 
      Transportation and Infrastructure and the House Committee 
      on Oversight and Government Reform, A Decade Later: A Call 
      for TSA Reform (Nov. 16, 2011).............................    68
    Department of Homeland Security Office of Inspector General, 
      TSA Management and Oversight at Honolulu International 
      Airport (Sept. 2012).......................................    90


[GRAPHIC] [TIFF OMITTED] 76978.001

[GRAPHIC] [TIFF OMITTED] 76978.002

[GRAPHIC] [TIFF OMITTED] 76978.003

[GRAPHIC] [TIFF OMITTED] 76978.004

[GRAPHIC] [TIFF OMITTED] 76978.005

[GRAPHIC] [TIFF OMITTED] 76978.006

[GRAPHIC] [TIFF OMITTED] 76978.007



                    HOW BEST TO IMPROVE OUR NATION'S


                   AIRPORT PASSENGER SECURITY SYSTEM


                     THROUGH COMMONSENSE SOLUTIONS

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2012

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The subcommittee will come to order. Today we 
will address an important issue that has a direct impact on the 
aviation industry: the Transportation Security Administration, 
or TSA, security policies.
    When established in 2001, the TSA became responsible for 
aviation passenger security screening, including the hiring, 
training, and oversight of screening personnel. Today's hearing 
will look at the effect TSA policies have on the passenger 
experience and on aviation commerce. We will hear from 
Government, industry, labor, and consumer advocacy witnesses 
about the impact of TSA policies on the civil aviation system, 
and suggested comments on solutions to improve aviation 
security.
    The aviation industry plays a critical role in the United 
States economy, contributing roughly 5 percent to our gross 
domestic product, and providing safe transportation to 803 
million passengers per year. According to estimates by the 
United States Travel Association, commercial aviation passenger 
travel contributed roughly $813 million to the United States 
tourism industry in 2011. Therefore, any regulation or policy 
that impacts the aviation passenger experience, or the free 
flow of aviation commerce, directly impacts civil aviation and 
is of interest to this committee.
    Surveys conducted by consumer advocacy groups have 
discovered that the professionalism and efficiency of the 
airport screening process has a direct impact on the likelihood 
that passengers will travel by air. In fact, one survey showed 
that aviation passengers were more likely to take one or more 
additional trips each year if the security screening process 
were to be made more efficient and friendly. These additional 
trips could generate millions of dollars in additional revenue 
for the aviation industry and for our economy.
    The last decade, this subcommittee has heard from 
constituents, colleagues, and industry stakeholders about TSA's 
impact on the passenger experience and on the civil aviation 
system. Concerns about the imposition of passenger screening 
procedures, such as the enhanced pat-downs, the use of advanced 
imaging technology machines, the lack of clarity on alternative 
screening procedures.
    While TSA has developed alternative procedures for groups 
such as children under 12, active duty military personnel, the 
elderly, and persons with disabilities, there is concern from 
consumer advocates that passengers and some screeners are 
uncertain as to what these alternative procedures are. In 
addition, there are fears that both passengers and screeners 
may not always be aware of what the passenger's rights are when 
going through the screening process.
    The past few years the TSA has started to move its approach 
from one-size-fits-all to a risk-based approach that attempts 
to focus screening efforts on high-risk passengers. This 
approach has resulted in the development of some new programs, 
such as Pre-check, an expedited screening program for known 
travelers of certain airlines. Under the Pre-check program, 
passengers enjoy streamlined screening. This is a small step 
towards a risk-based approach, and TSA should do more.
    TSA and its 45,000 screeners are responsible for a complex 
and difficult job: ensuring the security of all aviation 
passengers. The TSA would be well-served in pursuing better 
partnerships with aviation stakeholders. TSA should also seek 
more input from a variety of groups on how the security process 
can be improved.
    Look forward to hearing the witnesses' comments and 
suggestions to improve the aviation passenger experience, 
including areas where they believe TSA has made progress, and 
where progress still needs to be made.
    I am sure, by the way, that Members have noticed that the 
TSA itself has chosen not to participate in this hearing. If we 
want more Government stovepiping, separation from one sector 
and another, the TSA's attitude and actions regarding this 
hearing achieve that end. But if we want better Government and 
coordination between different Government activities, Congress 
must be able to fulfill its oversight responsibilities.
    In the case of this subcommittee, the TSA's operations and 
policies clearly impact civil aviation, including commerce, 
safety, airport operations, airlines, and passengers. 
Unfortunately, if they continue down this path of 
nontransparency and arrogance, the TSA will end up eliminating 
the very thing it is supposed to be protecting. Their absence 
today demonstrates why the public is so frustrated with the 
TSA. These people are public servants, and should reflect that 
in their attitude, rather than the arrogance that we see 
expressed on many occasions.
    I would like to thank all the witnesses for taking the time 
to appear before the subcommittee, and sharing their thoughts 
with us.
    And before we turn to witnesses for their statements, I 
would ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks, and include extraneous 
material for the record.
    [No response.]
    Mr. Petri. Without objection, so ordered. And now, I would 
recognize my colleague, Mr. Peter DeFazio from Oregon, for any 
opening remarks.
    Mr. DeFazio. Thank you, Mr. Chairman. I would just reflect 
that since I have been in Congress we have come a very long way 
on aviation security. My first term I got a briefing--and in 
those days the FAA was responsible for the oversight. But their 
employees weren't authorized to carry weapons in order to test 
the system. So they would encase a .45-caliber handgun, which 
is a pretty big honking thing, in a piece of Lucite, stick it 
in a carry-on bag with no more than something like three or 
five articles of clothing, and some very large percentage of 
the time it wasn't detected.
    You know, early on, I proposed an enhanced security bill. 
Introduced my first bill, I believe, in 1988 to enhance the 
security. Bill Lipinski and I, 4 years before 9/11, talked 
about federalizing the workforce in many airports. The security 
jobs were described as the lowest entry-level job in the 
airport. We had heard testimony saying that people looked 
forward, in St. Louis, in moving up to McDonald's from being 
screeners.
    We have professionalized the workforce. There are 
opportunities for advancement, better training, but it is still 
a work in progress. TSA has blundered in terms of certain 
acquisitions of equipment--the puffers, most notably, and some 
other equipment that they have acquired and then immediately 
retired, or sometimes didn't even put into use. And there is 
still some unevenness in terms of the training, and, with a 
large workforce, one can understand that.
    But we need a TSA that is more nimble, more responsive, 
that does a better job at acquiring technology to expedite the 
screening process, and isn't focused on things that aren't 
important, which undermines the confidence of the traveling 
public, but takes a ``bigger picture'' view. And I do welcome 
the move toward the Pre-check and the known employee 
identification. And yet I would observe that those systems are 
not yet quite perfect, and I will have some questions about 
that later.
    So, thank you, Mr. Chairman. I appreciate it.
    Mr. Petri. Thank you. Mr. Mica?
    Mr. Mica. First of all, thank you, Mr. Chairman, for 
conducting this important hearing. And the title of it, of 
course, deals with our effectiveness in accommodating 
passengers and also making certain that TSA is putting in place 
the very best security measures and focusing their attention on 
who poses a risk.
    Having been involved with TSA since its inception and one 
of the individuals responsible for its original creation, of 
course, I have been one of its strongest critics since it has 
sort of spun out of control. Just for the record, briefly, that 
spinning out of control, I think, occurred when it left the 
jurisdiction of this committee. It is very sad today that the 
administrator of TSA is stonewalling our committee, which 
created TSA, and refuses to communicate or work with our 
committee. He has done so, really, over his tenure. And I think 
that is part of the problem.
    He and others now are protecting one of the biggest 
bureaucracies that has ever expanded in the history of our 
Federal Government, from 16,500 screeners to approximately 
3,000 when it--30,000 when it left the jurisdiction of this 
committee now to 66,000, I'm told, with more than 45,000 
screeners, 14,000 administrative staff, 4,000 administrative 
staff within miles of here, making, on average, $105,000 a 
year. And then, with only 457 airports in the country, you do 
the math of another 10,000 administrative personnel outside the 
jurisdiction here, just the overhead as far as management 
administrative costs has soared beyond belief. They don't want 
to respond to us, they only want to expand the bureaucracy, it 
appears.
    The sad thing about it is the system doesn't make us any 
safer. In fact, now the customers are at risk. We have had 
meltdowns in airport after airport--Honolulu, we have--and we 
will cite those--ask unanimous consent that we cite in the 
record some of the meltdowns: Honolulu, L.A., Newark, Fort 
Myers, Charlotte. The list goes on and on. It is actually the 
passengers at risk now from TSA having their personal effects 
pilfered. It is unfortunate. Even in my own hometown of 
Orlando, as featured on a national television expose of theft 
by TSA workers, the meltdowns are--their lack of ability to 
perform.
    We heard the chairman speak of their lack of experience, 
and other Members will address that, too. But this is our 
frontline of security, and it is a very weak line when the 
screeners now pose a risk to the flying public. So we have got 
to get this thing under control.
    Mr. DeFazio was very active when we started this. We wanted 
to create a risk-based system that went after people who posed 
a risk. Now we are shaking down grandmothers, veterans, people 
with disabilities, every day you get a new horrific story. So 
we have lost our focus.
    The purpose of putting it together, too--and when we had 
staff look at our pre-9/11 security efforts for aviation and 
transportation, we saw a scattered effort. We wanted it 
unified, and that is what we did in creating TSA, so you can 
connect the dots. The only thing that may save us is 
intelligence and information. So far we have been saved mostly 
by foreign intelligence and foreign intelligence information. 
Very little domestic. In almost every instance, TSA, where 
there has been an event, whether it was the diaper bomber, 
whether it was the shoe bomber, the mechanisms and protections 
that TSA put in place for screening failed.
    We also have reports--and we will include those in the 
record--of the constant failure every week, everyday items that 
could pose a threat, do get by TSA. The equipment that they put 
in place also fails to detect even tests that we have imposed 
on the system and on a daily--almost a daily basis, a threat.
    So, we have this huge bureaucracy, we have the flying 
public dramatically inconvenienced, almost violating, I think, 
their civil rights, and a system that is very poor. And we 
have, finally, missed the mark as far as targeting those who 
pose a risk and focusing on those individuals, rather than the 
general flying public. So, done a lot of damage, and I think we 
can turn it around.
    The provisions that everyone helped with that we put on the 
end of the FAA bill that now require TSA to accept opt-out 
applications is in effect, and airports are now opting out. We 
had seven--we had five original that we set up that had private 
screening under Federal supervision that, as an evaluation, 
clearly stated after we had them in operation for some time, 
that private screening under Federal supervision performed 
statistically significantly better. So we do have a mechanism 
to get us back to our original intent, which was to take TSA 
apart after the threats of 9/11.
    We need to be closing down TSA as we know it, and 
instituting a safer, more secure, less bureaucratic, and more 
effective system.
    With that, I yield back.
    Mr. Petri. Thank you. And those--the documents to which you 
referred will be made a part of the record.
    [Please see pp. 68-139 for the reports that Hon. John L. 
Mica submitted for the record.]
    And I would like to welcome the first panel: Mr.--the 
Honorable John Pistole, administrator of TSA, in absentia, was 
invited, but we will check at some point with the Office of 
Management and Budget and others, and see what the policy of 
this Administration is, so far as whether people should be 
testifying on related questions before this Congress, or if the 
Administration's policy is not to cooperate and to stovepipe. 
Or, if they are worried about committees of jurisdiction, if we 
coordinate with the committee of jurisdiction, as we have done 
in this instance, and has indicated that they would like TSA to 
accommodate us, if that should be the policy going forward.
    But in any event, it is not acceptable to not get input 
from the TSA on a hearing on its activities that affect a vital 
part of the jurisdiction of this committee, which is aviation. 
And the fact is, of course, we all work for the public. And I 
talk to my constituents, they all assume that somehow we are 
accountable for the security that is going on in the airport. 
And, ultimately, it certainly does affect the operation of 
airlines, and they have to do a lot of work to try to 
accommodate and work with airport administrators to make sure 
that, one way or another, they make extra people and gates 
available for security when there is high frequency, to make 
sure people don't miss their flights because of the TSA 
problems, which were rampant at the beginning, and are, 
thankfully, much better now.
    But, in any event, we also would recognize the Honorable 
Charles K. Edwards, acting inspector general, Department of 
Homeland Security, and Stephen Lord, director of homeland 
security and justice issues for the Government Accountability 
Office.
    Gentlemen, thank you very much, and we will begin with Mr. 
Edwards.

  TESTIMONY OF CHARLES K. EDWARDS, ACTING INSPECTOR GENERAL, 
DEPARTMENT OF HOMELAND SECURITY; AND STEPHEN M. LORD, DIRECTOR, 
HOMELAND SECURITY AND JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Edwards. Good morning, Chairman Petri, Chairman Mica, 
Mr. DeFazio, and members of this subcommittee. Thank you for 
inviting me to testify regarding the effect of Transportation 
Security Administration's security policies on aviation 
consumers. Today I will discuss the results of two audits and 
two investigations involving TSA.
    In our examinations of TSA's programs, we found themes of 
inconsistent and insufficient oversight, policy implementation, 
and employee accountability that have the potential to 
adversely affect the airline consumer experience. The first 
audit that I will discuss is our report regarding check baggage 
screening at Honolulu International Airport.
    In December 2010 a confidential source notified TSA 
officials and provided video evidence showing some 
transportation security officers failing to follow required 
screening procedures in Honolulu, and clearing bags for 
transport without screening. As a result of this audit, we 
found five areas that needed improvement.
    First, TSA had a fragmented process for developing and 
evaluating changes to its baggage screening procedures.
    Second, there was a limited direct supervision of those 
screeners who did not follow proper procedures. Screening 
managers and supervisors were not regularly present in 
performing all required responsibilities.
    Third, TSA's directives and procedures did not include 
clear guidance on direct supervision of screening operations.
    Fourth, TSA management did not provide sufficient staff or 
more efficient equipment needed for screening operations. For 
example, officials at Honolulu requested automated equipment in 
August 2008, and TSA headquarters added the request to an 
unfunded requirements list at the same time new and used 
equipment was stored in a warehouse, awaiting delivery to 
airports for more than 1 year.
    Fifth, and finally, TSA allowed various levels of screening 
and intervals of mitigation that TSOs could misinterpret as 
meaning that screening was not always possible or needed.
    We made four recommendations in our report, and TSA 
concurred with and planned to address all four.
    The second audit that I will discuss is our May 2012 report 
regarding TSA's efforts to identify and track security breaches 
at our Nation's airports. TSA does not comprehensively track 
and gather information about all security breaches and, 
therefore, cannot use the information to monitor trends or 
generally improve security.
    The agency also does not provide the necessary guidance and 
oversight to ensure that all breaches are consistently 
reported, tracked, and corrected. As a result, TSA does not 
have a complete understanding of breaches occurring at the 
Nation's airports, and misses opportunities to prevent, 
minimize, respond to, and take corrective action against 
security breaches. The agency agreed with our report 
recommendations, and identified actions to resolve these 
issues.
    Finally, I will discuss two of our investigations 
pertaining to allegations of TSA employee misconduct and 
criminal acts. The vast majority of TSA employees are dedicated 
civil servants focused on protecting the Nation. However, 
allegations of misconduct by a small percentage of those 
working directly for and with the American public cannot be 
ignored.
    Recent media coverage of criminal misconduct of TSA 
employees may affect the perception of safety and security of 
airline passengers. The first example involves a case of theft 
by a TSO at the Orlando International Airport. The 
investigation revealed that, over a 3-year period from 2008 
through 2011, the TSO had stolen more than 80 laptop computers, 
cell phones, iPods, estimated at $80,000, from passenger 
luggage, while ostensibly performing his duties at the airport. 
In August 2011, the TSO pleaded guilty to Federal charges of 
embezzlement and theft and in January 2012 was sentenced to 2 
years' probation.
    The second example is of a case of theft by a TSA screener 
at Newark Liberty International Airport. The investigation 
established that from October 2009 through September 2010 
property and currency totaling as much as $30,000 were stolen 
from passengers as they underwent checkpoint screening. When we 
confronted the TSO with evidence, he admitted his guilt. The 
TSO was subsequently sentenced in U.S. district court for 30 
months' imprisonment, followed by 3 years' supervised release 
and ordered to forfeit $24,150.
    In conclusion, our audits and investigations highlight 
various aspects of TSA's oversight policy implementation and 
employee accountability that could affect the actual and 
perceived safety and security of the traveling public. Although 
TSA has made efforts to improve transportation security and to 
carry out our recommendations, TSA still faces challenges and 
must continue to work toward accomplishing its vital mission to 
protect the Nation and ensure free movement of people and 
commerce.
    Chairman Petri, this concludes my prepared remarks, and I 
welcome any questions that you or the Members may have. Thank 
you.
    Mr. Petri. Thank you.
    Mr. Lord?
    Mr. Lord. Chairman Petri, Chairman Mica, Representative 
DeFazio, thanks for inviting me here today to discuss my body 
of work on TSA and our new report on the TSA complaints 
process. I think this is an important report, as I think it 
shows how TSA could better mine the complaints data to enhance 
the screening process and passengers' experience, which is the 
theme of today's hearing.
    To be fair, though, I would first like to recognize that 
TSA faces a difficult task. They are simultaneously trying to 
enhance security, respect passengers' privacy, and maintain 
passenger throughput. Sometimes that is complicated to achieve 
simultaneously.
    I would now like to highlight the key points from our new 
complaints report. We essentially looked at two issues: how 
does TSA collect and utilize the passenger complaints data; 
and, two, how does it inform passengers who are interested in 
making complaints about the process?
    Regarding the data, it is interesting. TSA collects 
thousands of complaints each year through five central 
mechanisms. However, because the mechanisms all categorize the 
complaints differently, it is difficult to do a rollup to 
discern overall patterns and trends and identify what is really 
going on at the strategic level.
    In terms of numbers, we noted that TSA received over 39,000 
complaints through a single mechanism known as the TSA Contact 
Center. That is its primary mechanism for collecting 
complaints. Almost half, or 17,000 complaints, were related to 
the pat-down process.
    However, as noted in our report, this does not reflect the 
full story because, again, there are different mechanisms for 
collecting complaints. And at the ones they use at the local 
airport level, the TSA employees have a lot of discretion in 
how they identify and document these complaints.
    For example--just a quick example--we found comment cards 
were used in varying ways at six airports we contacted. At two 
airports, they were on display, customers could fill them out 
if they had a complaint. At another two airports, they were 
available, but only on request. And at the other two airports 
we contacted, they weren't available at all.
    We also found that TSA uses several methods to inform 
passengers about how you actually do make a complaint if you 
have a concern you want to share with TSA. This includes signs, 
stickers, and the customer comment cards I mentioned. But what 
we noted is there is a lot of inconsistency across airports on 
how the passengers are informed about the process. Thus, we 
made what I believe are four important recommendations to 
improve the process.
    First of all, we think TSA needs to clarify their policies 
for their own employees on how to collect and document 
complaints. We think they need to do more analysis of the good 
data they are collecting to reveal what the patterns and trends 
are, what they need to be focused on. We thought it was also 
appropriate for them to designate a focal point, someone I 
refer to as a Complaint Czar, to oversee the revamped process 
and ensure that new policies are being implemented 
consistently. And we think they also should take additional 
steps to better notify passengers about if you do have a 
complaint, how do you make it.
    The good news in all this is that TSA agreed with all our 
recommendations. They are already taking steps to implement 
some of them.
    I would now like to briefly discuss TSA's efforts to move 
to a more risk-based approach. That is one of the themes of 
today's hearing, as well. I would like to briefly note their 
efforts to move to a more risk-based process through the so-
called Pre-check program. They hope to have this program rolled 
out at 35 airports by the end of the year. I think this is a 
noteworthy effort. Essentially, what they are trying to do is 
find that elusive needle by shrinking the haystack, you know, 
only focus resources on higher risk passengers. But it is in 
the early stages of implementation. I can't really comment on 
how effectively it is being done. We plan to look at that next 
year, as part of our regular audit program.
    In closing, I would like to look at this at a more 
strategic level. I think TSA, if they really want to enhance 
the process and address passengers' concerns, they need to make 
the process more selective, more effective, more efficient. 
There are various ways to do that.
    Mr. Chairman, this concludes my prepared remarks. I look 
forward to responding to any questions you may have. Thank you.
    Mr. Petri. Thank you. And thank you both for your 
testimony. I am curious to know whether the Inspector General's 
Office or the Accountability Office--do you liaise with, or 
does TSA do it, with other people who are concerned about 
security in other countries to figure out, as part of best 
practices, what they are doing to see if we can improve 
security and lower costs and the intrusiveness of the process? 
And--or are we basically just throwing people at the problem 
here, and then expecting to see that they operate as nicely as 
possible, but not thinking that strategically about the whole 
thing?
    And the second question is whether TSA itself is trying 
different techniques at different airports, possibly, or--to 
see if there are ways of doing its job better and more 
efficiently? Or is it basically one-size-fits-all and, again, 
just throwing resources at the problem and hoping that we don't 
have a disaster that will cause us to re-examine the whole 
thing from top to bottom, as we did after 9/11?
    Would either of you care to respond to those concerns?
    Mr. Edwards. Thank you, Chairman. I very recently met with 
Chairman Issa. We have done a lot of work on different pieces 
of work that TSA is doing, different audits and inspections. 
But we have not looked at the holistic approach at TSA itself. 
So, after meeting with Chairman Issa, we are in the process of 
doing an audit, looking at TSA staffing and the different 
approaches it is taking. It is still in the early stages of it, 
but I plan to look at it this year, sir.
    Mr. Lord. I would like to add that I think TSA could learn 
a lot from our foreign partners. In fact, they have an office, 
an Office of Global Strategies, which is basically an office 
established to liaise with our foreign partners. I think that 
we can learn from how other countries conduct screening and--as 
well as, you know, mitigate risks they are concerned about.
    In terms of ways we can do better, the one-size-fits-all, I 
think TSA is trying to move away from that. That is why they 
are using the so-called Pre-check program. Again, they want to 
focus more screening resources on higher risk passengers, and 
expedite screening for the lower risk passengers. They have 
also recently relaxed screening requirements for the elderly, 
people 75 years and older, and children, people who are 12 
years or younger. So we think that is a step in the right 
direction, that is an example of how they are using risk-based 
screening more effectively.
    Obviously, these people are not exempt totally from the 
screening process. I believe it is important to have an element 
of unpredictability in it and, you know, allow TSA to, you 
know, periodically screen people, even those that think they 
are not going to be subject to screening.
    Mr. Petri. We will probably get better answers on this from 
the second panel, on the relationship between the airline 
industry and the resources that they can make available for the 
security process and TSA. But I would be interested if either 
of you could offer any insight as to how--if--it seems to most 
of the people on our panel--certainly to Chairman Mica in his 
opening statement--that there is a lot of--to be gained by 
emphasizing intelligence and information outside of just sort 
of inspecting each person who happens to walk through the door 
from top to bottom, and hoping that that will actually solve 
the problem.
    Do you have any sense at all as to how much both 
coordinating with foreign governments and domestic--other law 
enforcement agencies and--emphasis is being placed on 
intelligence and information so that you can credibly--you can 
cover up that you have got it through intelligence by having an 
inspector and pretending the inspector discovered it?
    But to just rely on the inspector is almost--we all--
everyone on this panel is inspected 50 or 100 times a year, and 
we forget to take our little ditty bag out, or we leave 
something in, and it is never--it rarely--once in a while stuff 
is found, but a lot of times it isn't. And other things that 
look suspicious are awards that happened--have lead in them and 
don't show up and things, so it is a very inefficient process, 
inspecting every individual that walks through the door, 
especially when many of them are inspected 50 or 100 times a 
year at what cost to the taxpayer, and what yield to the--
except inefficiency--to the whole--could you care--comment on--
--
    Mr. Edwards. Thank you, Chairman. TSA has a very difficult 
job of protecting the Nation's transportation security system, 
and to ensure that people and commerce get through safely among 
all the threats that come in every day.
    I can come by at a setting that is not public and talk to 
you about the intelligence efforts. We also coordinate with law 
enforcement intelligence partners, and I can come and talk to 
you privately, or to your staff, and give you more information 
about the TSA's strategy of what we know and what we are 
working with TSA about.
    Mr. Lord. I think, to answer your original question, I 
don't think you can do it through screening alone. I think 
Chairman Mica is correct in noting it has to be fused with good 
intelligence. In fact, if you look at two of the most recent 
successes which we can discuss publicly--the disrupted air 
cargo plot in Yemen in October 2010 and a plot earlier this 
year, they disrupted a plot, another planned undergarment 
attack--that was due to good intelligence, and that was due to 
foreign intelligence.
    So, you can't--you have to figure out a way to better fuse 
the intel streams with the screening process. If you are just 
relying on screening alone, a lot of people would argue that is 
too late. So I think these recent disruptions underscore the 
importance of having good intel-sharing partnerships with a 
foreign government. So I think that is a real important point.
    Mr. Petri. Mr. Mica.
    Mr. Mica. Well, thank you, and thank you for sharing your 
review of some of the procedures and what is taking place with 
TSA, their effectiveness and passenger screening problems.
    They have come up now with a proposal for a new risk-based 
screening system, and they have tried several other things. I 
know after the Chechen bombing, the two women that took down 
those planes, we--knowing that our system was flawed, that we 
put in behavior detection systems. Did you all look at the 
behavior detection?
    Mr. Lord. Yes. We issued a report in May 2010. We made 11 
recommendations to TSA to improve that program----
    Mr. Mica. And, as I recall, that----
    Mr. Lord [continuing]. That was----
    Mr. Mica [continuing]. Said that something like 21 known 
terrorists had gone through airports, TSA, 18 times. That meant 
some went through multiple times. I mean I don't know if that 
is a right figure. Is that correct?
    Mr. Lord. That is fairly close, yes.
    Mr. Mica. OK.
    Mr. Lord. We noted, as part of our discussion of developing 
better performance measures, that TSA perhaps could look at the 
video tapes of known--people who are convicted of supporting--
--
    Mr. Mica. Right.
    Mr. Lord [continuing]. Terrorist-related activities--study 
their behaviors, and see if they were admitting any so-called--
--
    Mr. Mica. Well, I went up to Boston to look at what they 
had set up there, and it was a--it was almost a joke. They were 
interviewing everyone. And I have also been to Israel most 
recently. If you get an update, which Napolitano and Pistole 
got, to look at their screening and--of course, they chose the 
most bureaucratic, least effective, most intrusive means of 
screening in the Boston--and I think they did it in Detroit. Is 
the Detroit behavior detection review over?
    Mr. Lord. We are currently in the process of reviewing the 
so-called assessor----
    Mr. Mica. Yes.
    Mr. Lord. It is the new variant of the behavior detection 
program. I believe the IG is also looking at this, or some 
variant of it.
    Mr. Mica. Mr. Edwards?
    Mr. Edwards. Chairman, we are both doing an investigation, 
and also doing an audit on the behavior detection, and also 
looking at the program. So the report is being drafted right 
now, and I should have it out by the second quarter. And before 
we publish it, I will be glad to come by and brief you, sir.
    Mr. Mica. Well, we would like to get the results of that.
    The other problem we have is for--it is over 10 years now, 
and I think I have put in law at least 3 times that they should 
develop a biometric identification. We still have nothing for 
pilots. We required that it be--the license be durable, have a 
picture of the pilot, and have the ability to contain biometric 
information. And, as I reported a couple of years ago, when 
they first produced it under the law, it was plastic, which was 
durable, it had some biometric capabilities, but very limited. 
I don't know who ripped off their procurement officer, but any 
credit card had more capability than what they produced. And 
then the only picture of a pilot on the photograph--on the 
card, ID card, was Wilbur and Orville Wright.
    Is that still the case? Have they produced a pilot 
identification?
    Mr. Edwards. Not that I am aware of.
    Mr. Mica. Not that you are aware of?
    Mr. Lord. Not that I am aware of.
    Mr. Mica. And they haven't settled on biometric. There is 
two components to biometric. One is--would be your fingerprints 
or thumb prints. The other would be iris. And I think they have 
settled on the thumb, but we--do we have a resolution on iris, 
yet? Do you know, Mr. Lord, Mr. Edwards?
    Mr. Edwards. No, sir. I don't.
    Mr. Lord. I don't know----
    Mr. Mica. I don't think so. And see, that is the problem, 
because they continually, day after day, week after week, month 
after month, screen Members of Congress. Now, some of them may 
pose a risk, I have to provide that caveat.
    [Laughter.]
    Mr. Mica. But Federal judges, people with top security 
clearances are all screened, because they don't know who those 
people are until you have an ID that can truly tell who that 
person is. We have other agencies who have IDs--is that true, 
Mr. Lord--that have biometric measures that----
    Mr. Lord. Yes, yes. The Department of Defense uses a common 
access card----
    Mr. Mica. Yes, yes.
    Mr. Lord [continuing]. Across its entire community.
    Mr. Mica. And we are now, 10 years later, three mandates in 
law, and they still do not.
    So, you really--and what scares me with these pre-clearance 
programs and--they had CLEAR program and other programs, which 
are fine, because they are sort of Mickey Mouse operations, 
they send them through the same flawed screening process, but 
if you actually knew who the person was, the pilot actually 
will have the controls of the plane. Mr.--it is kind of scary 
to think about this, but Mr. Cravaack is a pilot, and he 
actually controls the--a plane and can do whatever he wants 
with the plane, and professional pilots are going through this, 
flight attendants, other people, mechanics, et cetera.
    The screening of the employees is another complete bizarre 
kabuki dance. And I think it is still the same way. They screen 
some of the employees at some of these programs. They get 
behind screening and they have chemicals that could blow up a 
plane, they have everything that you couldn't bring through. 
They have saws, knives, weapons--or not weapons, but all kinds 
of instruments that you could not bring through screening. So 
we have to have information about people, we have to know 
something about their background, then we have to know who they 
are and focus on people who pose a risk. But until you have an 
ID that can tell you who that person is, everything that they 
do with these programs, to me, is, again, sort of a sham.
    So, maybe I am off base, Mr. Lord.
    Mr. Lord. Yes, if TSA was here I presume they would report 
they are considering adding additional workers, make them 
eligible for their Pre-check program, such as Federal workers, 
such as myself with security clearances, Members of Congress 
with security clearance----
    Mr. Mica. I am not looking for just me, but you have 
military, too, that they are shaking down----
    Mr. Lord. Yes, military.
    Mr. Mica. You have whole--there are millions of people with 
clearances that they don't need to be wasting their time on. In 
fact, they dilute our effectiveness, because they are wasting 
time. The most recent offense was just, I guess, a few days 
ago. One of the congressman's nieces was wearing a sundress, 
and they--17 years old. And in the process, they pulled down 
the sundress. Very embarrassing, on tape. Now I think there is 
a Federal probe of this.
    But a TSA agent who cannot look at a 17-year-old girl in a 
sundress and say that she doesn't pose a risk, or put her 
through--again, we do have multihundred thousand-dollar pieces 
of equipment now at almost every airport and other screening 
techniques without subjecting the traveling public and an 
innocent young lady to this kind of embarrassment. It has 
gotten beyond the pale.
    Again, I will yield back. Mr. Petri, I thank you.
    Mr. Petri. Thank you. Mr. Coble.
    Mr. Coble. I thank the chairman. Gentlemen, it is good to 
have you all with us today.
    My personal dealings with TSA have been consistently 
favorable and pleasant. Some of my constituents report 
otherwise. Of course, you have personal inconvenience on the 
one hand, personal safety on the other. And one would conclude 
that safety should trump inconvenience in most cases, but it 
would be preferable if we could accommodate both those issues. 
And hopefully that will be done.
    Mr. Edwards, does TSA need to focus more on customer 
service in providing passengers with a more--strike that--with 
a less intrusive experience? If so, what is the agency doing to 
that end?
    Mr. Edwards. Thank you, sir. TSA is working with liaisons 
at various airports. TSA is trying to improve the customer 
experience. But it still has long ways, because it needs to 
address the breaches and the comprehensive issues that are 
still faced with various airports.
    I totally agree with you that they do need to work with--
let the customers know. Because I think, ultimately, the safety 
of a passenger is the most important thing. But you need to 
work with the customers, let them know if there is long waits, 
why it is taking so long.
    And we also--by the way, we make sure--not to get off 
point--we also have red team testing, which is classified, but 
we do that every year to ensure that the screening process is 
secure. And then we discuss the results of such things at a 
classified setting. And TSA does listen to us and make 
improvements on it.
    Mr. Coble. I thank you, sir. Mr. Lord, as I have mentioned, 
I have been the beneficiary of constituent complaints. Now, I 
don't know whether these would be isolated or whether they 
would be general run of the mill. Having said that, is it your 
belief that some of the TSA screening procedures and treatment 
of passengers causes airline passengers to deter from flying?
    Mr. Lord. You know, that is a very difficult issue to 
measure. We have heard that anecdotally, but--I assume that is 
likely to occur in some cases, but from a--since I am from GAO, 
I always like to look at the data empirically. And I haven't 
really seen the data, but we have definitely heard reports that 
would support that view.
    Mr. Coble. You may not know this, Mr. Lord, but do you have 
a figure, the total number of complaints that have been 
forthcoming? That may be difficult to----
    Mr. Lord. Actually, that is a very good question, because 
when we started our customer complaints job, that was one of 
the first questions I asked my team. I said, ``I would like to 
know how many complaints are made each year to TSA.'' And what 
we quickly found is we can't really answer that, because they 
have different offices that are, you know, diligently 
collecting complaint data, but it is all done through a 
decentralized process, and they all use different buckets to 
put the complaints in, so you can't do an overall rollup to 
really figure out what is going on on an overall basis.
    Their primary mechanism, though, I can report, is the TSA 
Contact Center. Over 3 years they received 39,000 complaints. 
And almost half of them, about 17,000, were related to the pat-
down process. The next two most frequent categories were 
customer service and screening. And, somewhat surprisingly, 
complaints about the whole body imagers, that ranked a distant 
fourth, and was a much lower level.
    So, there is some selective data you can look at that 
clearly shows--it is more than anecdotes--that customers are 
concerned about the pat-downs and customer service. But again, 
that is only one of five mechanisms they have. And that is why 
we recommended that TSA figure out a way to roll all this data 
up at a higher level, so it is easier to figure out what is 
going on.
    Mr. Coble. I got you. Thank you both again for your 
presence today.
    Mr. Chairman, I yield back.
    Mr. Petri. Thank you. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. To both the 
panelists, I am having a hard time understanding how hard it 
would be to have a standardized national system for reporting 
security breaches, or how hard it would be to have a 
standardized national system with categories of complaints. I 
mean I don't get it. That seems pretty routine to me. I mean 
what is the barrier?
    Mr. Edwards. Well, thank you, sir. On the breaches, well, 
clearly they don't have a clear definition. To me, a breach is 
a breach.
    Mr. DeFazio. Right.
    Mr. Edwards. But they don't have a clear definition. In one 
system it is defined differently. And the system to capture 
breaches, there are 33 different categories. And then they have 
a management directive which talks about breaches as something 
different. So, one of the recommendations we have made is come 
up with a clear definition.
    Mr. DeFazio. Right.
    Mr. Edwards. If somebody bypasses or does not go through 
screening and enters a sterile area, it is a breach.
    Mr. DeFazio. Right.
    Mr. Edwards. Not whether the intent was mal or not. It is 
still a breach.
    Mr. DeFazio. Right.
    Mr. Edwards. And so, when we--and they don't have a 
comprehensive mechanism to track that. It is captured at the 
local level, and then when it is sent up to their parent 
system, or to the Transportation Security office in Reston, it 
still--you know, they don't have all the data. Some of them 
don't report it, so they are not able to make decisions on 
corrective action or look at trends. So one of the 
recommendations we have made, out of the two, is to come up 
with a system that will capture that.
    Mr. DeFazio. Right. And again, it doesn't seem too 
difficult. And, Mr. Lord, on the complaints, that seems really 
routine.
    Mr. Lord. Yes. You can make the same argument on a 
complaint. I think it is a matter of--people are very diligent, 
working hard in their own little stovepipe. But when we came in 
and took a couple steps back, we quickly figured out everybody 
was measuring it a little differently. And once we explained, 
well, this is going to make it really difficult to figure out 
what is going on on an overall basis, they quickly recognized 
they could be doing it better.
    So, I think that just underscores the importance of 
sometimes just bringing in an outside party to take a look at 
what is going on in your shop.
    Mr. DeFazio. OK. That is good. Now, I want to--I know you 
are in the preliminary stages on Pre-check, but I want to put 
sort of a basic premise to you.
    We have, it seems to me, a kind of bizarre system. You 
contact the airline, you give them your--I have a global entry 
card. You give them your global entry information. And then 
they attempt to encrypt that into your boarding pass. The last 
seven times I have tried, they have failed to do that. But I 
have recently read that now there are apps where you can read 
your barcode and see whether or not you have been cleared, 
which seems to me is problematic, both because it doesn't work 
a lot of the times, and it is also problematic because it is a 
security issue.
    So, I don't know what a trusted traveler card looks like, 
but I know what a global entry card looks like. Pretty darn 
hard to counterfeit. Why don't we just have readers at that 
point, and you say, ``Here is my boarding pass,'' which doesn't 
have encryption in the barcode, ``But here is my global entry 
card. You can see now that I am a low-risk person because I 
went through the background check, et cetera, et cetera,'' and 
they could read it.
    But they say, ``Oh, we can't read those cards.'' Well, you 
can read--I mean I can come into the country without talking to 
a customs agent. I mean a border agent, with the card. But I 
can't get on an airplane? I mean this seems really bureaucratic 
and stupid. No offense.
    Mr. Lord. TSA, if they were here, they would wholeheartedly 
agree, I assume, that they need to take additional steps to 
protect that type of information. In fact, that is one of the 
reasons they are rolling out this boarding pass scanning 
technology. It is to help authenticate the documents. It is 
currently being pilot tested in San Juan, Dulles, and Houston, 
I believe.
    But, anyway, they recognize that as a potential 
vulnerability. We will be looking at that as part of our 
upcoming----
    Mr. DeFazio. But I am just saying why not eliminate that 
step? Why not just have a standard boarding pass, and the key--
if you want to stand in that line, and they can either let you 
go through, or decide to randomly screen you--is to show them 
the card which proves you are who you say you are, and that you 
have had a thorough background check, and you are cleared. 
Since, I mean, what is more of a threat: getting on to an 
airplane, or coming into the United States of America without 
having to talk to a border patrol agent?
    I mean this is nuts. I mean TSA is inventing a whole new 
thing when all they need to do is read the damn cards.
    Mr. Lord. Yes. We will be taking a closer look at that in 
our upcoming reviews. I will--we will be able to get back to 
you at a later date on that.
    Mr. DeFazio. OK, thank you. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Cravaack.
    Mr. Cravaack. Thanks, Mr. Chair. Thank you, gentlemen, for 
being here today.
    Got a quick question for you, just in regards to--as 
passengers, when they are going through TSA security. One of 
the things that I keep on hearing is--and, quite frankly, 
experiencing myself in an airport where actually I was dealing 
with a supervisor after I was asking some questions about 
protocol and procedures, threatened to get the police on me and 
everything else, even though I am just asking simple questions 
about the procedures that I had to personally undergo as a 
citizen of the United States.
    Now, I think what people are very upset about is that when 
they go through security, they give up their personal rights 
and freedoms to be able to go through the security, and that 
when they think that their freedoms and securities are 
breached, they don't have anybody to talk to. There is no real 
advocate for the passenger there that is able to listen to them 
and, you know what, not just give them lip service, but to give 
them followup, as well.
    So, could any--could you gentlemen comment on that?
    Mr. Lord. Well, in our complaints report, the very last 
section, we describe TSA's--they just established this new 
passenger advocate program. They just started to roll it out. 
And they designed it to help provide an independent means to 
address passengers' complaints. Because, right now, as we 
pointed out in our report, it is a relatively closed system. 
The people investigating complaints report to the same--they 
are in the same supervisory chain as the people they are 
investigating in airports, and that raises some independence 
issues.
    But under this new advocate program, they are going to be 
able to report separately to the Office of the Ombudsman at TSA 
headquarters, so that may help address the issue you are 
concerned about. They will tend to be more of an advocate, I 
believe, if it is implemented properly, but----
    Mr. Cravaack. But who is the passenger's advocate right 
there, when they feel, right then, that their personal 
liberties are being invaded?
    Mr. Lord. They will have someone who is designated as a 
passenger advocate. It will be a collateral duty, in most 
instances, but they are going to have someone specially trained 
to help ensure these--you know, these things you keep reading 
about don't occur with such frequency.
    Mr. Cravaack. Yes. And the other aspect of it is somebody 
that can make a command decision. That is the other aspect.
    And I can go with you offline and tell you personally what 
happened to me and my 9-year-old son--he is going to be nine on 
Saturday--but what exactly happened to him and me, as a parent, 
concerned about that issue. And there was no one listening. And 
I am talking to the individual as a passenger, as a father, and 
this person didn't try to assist me, didn't care about my 
particular concerns. And then, even more so, elevated it to the 
point where they started threatening law enforcement. That is--
what do I do? What does the average American citizen do when 
they are up against that? That is absolutely uncalled for and, 
quite frankly, exactly the opposite of what we have been 
hearing that TSA is all about.
    Mr. Lord. No, I agree with you. There are incidents that 
occur like that. And I think passengers need mechanisms where 
they can, you know, file a complaint and have it addressed 
promptly and independently.
    So, hopefully, you know, you will see more consistency in 
that area, now that our report has been out. But, you know, it 
is a difficult situation. I agree.
    Mr. Cravaack. It is.
    Mr. Lord. So----
    Mr. Cravaack. It is that. I am--Mr. Chairman, I am 
disappointed that Mr. Pistole is not here today. I did want to 
address some concerns about--and I don't know if you gentlemen 
can address this in regards to security within the shadow of 
the aircraft, and how that is being addressed. And also, I was 
hoping to get more information on what we are doing to ensure 
that our troops that are in uniform, traveling on orders with 
their ID, are being treated with the respect and dignity that 
they deserve when traveling our Nation's airlines. Can you--
either of you two gentlemen--comment on that?
    Mr. Edwards. I can take your questions back, sir. And if we 
have not done any work, I will try to get the answers for you. 
And also, for complaints, it may not help right away, but we 
also have a hotline, 1-800 number, and we also have a web 
portal that we can take the information and then make sure it 
gets to the right person and ensure that actions are taken. And 
what happened shouldn't have happened, and we can at least make 
sure that it doesn't happen in the future.
    Mr. Lord. And I can take the second part of the question. 
In terms of members of the service in uniform, as long as they 
have a common access card, they are eligible for the Pre-check 
process, if it is established at a particular airport. That 
allows them to be subject to expedited screening. I think that 
is a good thing. That is another example of how TSA is moving 
to a risk-based screening process, again, shrinking the 
haystack.
    Mr. Cravaack. Right.
    Mr. Lord. Don't spend so much time worrying about people we 
know----
    Mr. Cravaack. Yes.
    Mr. Lord [continuing]. A lot about, we think are good 
security risks.
    Mr. Cravaack. Excellent. Thank you, gentlemen, and I yield 
back.
    Mr. Petri. Thank you. Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman. I want to thank both 
of you for coming this morning. Very disappointed that TSA was 
unwilling to come. I understand how uncomfortable these 
hearings can be for them, especially since we are talking a lot 
about complaints today. But part of their job is to let the 
American people know what they are doing. And part of our job 
is to hold Government agencies accountable for what they do. 
And so it is especially disappointing. But thank you for coming 
today.
    The bulk of my questions, I believe, will be going to you, 
Mr. Lord. However, Mr. Edwards, if you have anything to add, 
please feel free to do so.
    Mr. Lord, you mentioned in your testimony that you were 
concerned because it appeared like there was a lot of 
discretion available from airport to airport by TSA agents on 
how they logged complaints. My question is, what about--what 
other discretion did you see on how they do their job? Do they 
have discretion?
    Mr. Lord. They--well, from an audit standpoint, you always 
like to see consistency in anything you are looking at. And, in 
terms of their screening protocols, they are very detailed. I 
believe there is more consistency in the way they try to 
screen. But the complaint process is what we focus on.
    In this report, we saw great variation, which concerned us. 
Not only--again, they were always documenting the complaints 
through comment cards and logging them in, but they weren't 
sharing these with their headquarters offices. So the 
headquarters--from a headquarters standpoint, you really don't 
know what is going on in the field, you know, if you are 
collecting information, yet not sharing it with your 
headquarters offices. So that concerned us, as well. There was 
inconsistency in that area, as well.
    So, if I had to come up with a single word to describe our 
report, it was inconsistent application.
    Mr. Ribble. Yes. And that discretion, though, you didn't 
observe discretion available to individual screeners as it 
related to someone that they--well, let me go back.
    Are they required to follow very, very specific screening 
requirements on every single passenger, or is there discretion 
there?
    Mr. Lord. The protocols are fairly detailed. And, from a 
security standpoint, as a manager, you want to ensure your 
screening workforce is implementing them consistently. 
Obviously, we all know, sometimes there are lapses, it doesn't 
occur at all or it is done inconsistently. But, from a security 
standpoint, if you see--I mean the screening protocols are 
sensitive security information--they are not public 
information, but I can assure you they are very detailed, not 
only for passengers, but for the cargo carried in the belly of 
the aircraft and for the checked baggage. They are very 
detailed. But on a complaint side, it was a little more 
undefined at the local level.
    Mr. Ribble. Yes, and I am not here trying to beat up on any 
Federal employee trying to do their job. Quite frankly, I fly 
mainly out of Appleton, Wisconsin, or Green Bay, Wisconsin, and 
I have found the TSA agents there to be highly professional and 
doing a very good job. Now, obviously, as a Member of Congress, 
I have a bit of notoriety. I don't know whether or not I am 
getting different treatment than anyone else does. However, I 
travel at a lot of airports, and I can say that I have observed 
inconsistency in their process from airport to airport.
    So, regarding this issue of inconsistency, not just on 
complaints--but we could just stay focused on the complaint 
issue--who is in charge of making sure that the inconsistency 
is--if there is inconsistency from airport to airport, how much 
say do the airports have? How much say do the airlines have? 
How much say does the TSA have? How much say do passengers 
have? Who is the boss here?
    Mr. Lord. Well, again, that is another good point we 
highlighted in our report. And one of our key recommendations 
was essentially appoint a Complaint--for lack of a better term, 
a Complaint Czar. We didn't use that term in our report----
    Mr. Ribble. Right.
    Mr. Lord [continuing]. But that is how I refer to it, 
someone to oversee the process across the entire population of 
airports, make sure the new policies are being implemented 
effectively, all the data streaming in, they are measuring it 
the same way. Because, again, as our report said, who cares if 
you have data coming in if it is not measured--you can't make 
heads or tails of it?
    So that was a key recommendation. We said, ``Assign a focal 
point.'' For lack of a better term, I will use ``Complaint 
Czar.'' But we think that will add consistency to the process.
    Mr. Ribble. And, Mr. Edwards, I just turn my comments 
toward you a little bit. If you could, talk to us about the 
relationship between the passengers, airlines, and TSA. It 
seems to me that our transportation economy is pretty 
significant and very important to the overall U.S. economy. 
Ultimately, passengers will make choices based on treatment, 
whether it is treated by airlines or treated by Government. 
They may choose to go to different forms of transportation--
and, in fact, they are.
    How do we protect our airlines and protect security, given 
that TSA doesn't seem to be responsive to either?
    Mr. Edwards. Well, thank you, sir. As I mentioned earlier, 
that TSA has a monumental task of ensuring that we keep the 
transportation system secure to ensure that people and commerce 
move freely. And there are emerging threats every day.
    So, on one hand, TSA needs to ensure that passenger safety 
is not jeopardized. At the same time, people wait time should 
also not increase. So TSA needs to work with airlines. You 
know, they do have liaisons, so they need--and they need to 
ensure that the stakeholder meetings within the airports 
continue and share information.
    And also, you know, we have--when we do our audits and 
inspections, we provide recommendations. And when we find 
things that TSA needs to work on, we don't just wait until the 
report is published, just because the report needs to get 
published. Well before the report is published, we meet with 
them and tell them, ``Look. Here are the things that we are 
finding that you need to work on that''--because I am not 
looking always to tell a bad news story. If they can--if I can 
find something earlier on and let them know, ``This is what I 
am finding systemically that you need to work on,'' and ``Fix 
it by the time my report comes out''--so there is a good 
working relationship over there, as well.
    Mr. Ribble. Yes. Mr. Chairman, request permission for 1 
more minute. Thank you.
    And then I just wanted to talk, Mr. Lord, on the pre-
program, this new pre-screening program that they have. It 
seems to me that security is one issue, customer satisfaction 
is another. And as a pre-screened passenger, I have noticed a 
great deal of inconsistency in pre-program, in that it is not 
reliable to me. I don't know ahead of time, even though I have 
been pre-screened, I don't know that I will actually be 
effectively pre-screened once I arrive at the airport. And so I 
can't really plan on how long the line will be, or how much 
time it will take. I have to act as if I am not pre-screened. 
And so, therefore, I have more frustration with the program, 
and less satisfaction with the program on a program that was 
designed to increase satisfaction.
    Mr. Lord. Yes, we have heard that complaint from multiple 
sources.
    Mr. Ribble. I imagine you have.
    Mr. Lord. I can assure you--and I think you are right, 
because it doesn't really offer the advantage of cutting your 
wait time if you still have to get to the airport at the same 
time. I mean what is the advantage of the program?
    I believe TSA is cognizant of this. They are going to take 
steps to make it more permanent. But this is something we are 
going to look at in our upcoming review of the Pre-check 
program. Obviously, to me, that is a major selling point: you 
don't have to get to the airport as early. But when you arrive, 
and the Pre-check line is closed for that particular day, you 
have to--you wonder. What is--I mean what is the advantage of 
the program?
    Mr. Ribble. Or, I have been told, ``Well, you are pre-
screened, but you are not pre-screened today.''
    Mr. Lord. Yes.
    Mr. Ribble. ``Your number didn't come up.'' It is a crazy 
system.
    Mr. Lord. Yes, yes.
    Mr. Ribble. It just really is. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Yes, you miss a lot of planes that 
way, if you rely on the system, and that is not really helping 
very much.
    Well, we thank you very much for your testimony, and we 
will turn to the second panel.
    The second panel consists of Mr. Ken Dunlap, who is global 
director of security and travel facilitation of the 
International Air Transport Association, or IATA; Ms. Veda 
Shook, who is international president of the Association of 
Flight Attendants; and Mr. Charles Leocha, who is the director 
of the Consumer Travel Alliance.
    We thank you all for the effort that went into your 
prepared statements, and would invite you to summarize them in 
5 minutes or so, beginning with Mr. Ken Dunlap.

 TESTIMONY OF KENNETH J. DUNLAP, GLOBAL DIRECTOR, SECURITY AND 
 TRAVEL FACILITATION, INTERNATIONAL AIR TRANSPORT ASSOCIATION; 
  VEDA SHOOK, INTERNATIONAL PRESIDENT, ASSOCIATION OF FLIGHT 
   ATTENDANTS; AND CHARLES LEOCHA, DIRECTOR, CONSUMER TRAVEL 
                            ALLIANCE

    Mr. Dunlap. Chairman Petri, Congressman DeFazio, and 
distinguished members of the committee, thank you very much for 
the opportunity to invite IATA to testify on the future of 
aviation passenger screening. IATA's 240 member airlines criss-
cross the globe every day, safely carrying passengers and cargo 
to their destinations. In 2011 alone, airlines carried more 
than 2.8 billion passengers. And I know you have heard this all 
before, but the number is expected to grow globally, with 
nearly 6 billion passengers carried by the year 2030.
    With this projected growth will come the need for improved 
infrastructure, and perhaps most importantly, next-generation 
passenger screening based on a new paradigm. Here in the United 
States, we are seeing encouraging signs that the one-size-fits-
all approach to passenger screening is being re-evaluated. 
Secretary Napolitano and Administrator Pistole have begun an 
important move to risk-based passenger screening. Examples are 
TSA's voluntary Pre-check program, new procedures for 
individuals 12 and under, 75 and older, and also airline 
crewmembers.
    In parallel, the airline industry has committed itself to 
developing a new risk-based security screening checkpoint. At 
this point I would like to pause and acknowledge both Secretary 
Napolitano and Secretary General of the Council of the 
International Civil Aviation Organization, Raymond Benjamin, 
for their vision and support of this industry initiative.
    IATA is working with public and private partners around the 
world to modernize and improve the passenger screening 
experience through the Checkpoint of the Future program. Over 
the last 3 years, the program has evolved into an industry-led 
and IATA-supported initiative. That means that airports, 
security equipment manufacturers, Interpol, universities, 
governments, and airlines are working together to make a new 
checkpoint a reality. And we can put numbers behind our 
collaboration.
    Our advisory group, which provides oversight, has 16 key 
senior executives from every corner of aviation. They guide 110 
experts who are working to assemble the technology, policy, and 
procedures needed for a checkpoint of the future, and all of 
these individuals are volunteering their time to this effort. 
To date, the team has developed a concept definition and 
blueprints to take us through a checkpoint that evolves from 
today to 2014, to 2017, and 2020. And, in addition, our 
stakeholders are developing an airport testing program.
    We have concluded component trials this year with our 
airport partners in Geneva, Heathrow, and Amsterdam, and we 
have a dozen new trials planned for the year 2013. And we 
certainly hope that we can bring several of these to airports 
in the United States.
    So, you are probably wondering, ``What does a checkpoint in 
the future look like?'' With a view towards the near term, the 
checkpoint of the future in 2014 focuses on integrating new 
procedures to facilitate risk-based screening and 
decisionmaking. The 2017 checkpoint of the future, or our 
medium-term vision, is focused on updated technologies and 
processes to increase the security value of the checkpoint, to 
include biometrics. From 2020 and beyond, it is envisioned that 
the passengers will be able to walk through the security 
checkpoint without interruption.
    And allow me to spend just a few moments more on one other 
aspect of risk-based security, and that is changing our mindset 
to focus on outcome-based requirements supported by global 
standards. Our chances of raising the bar on security are much 
better by focusing efforts on delivering results, rather than 
on replicating processes and procedures that may work better in 
one jurisdiction or one airport, rather than another. The 
United Kingdom is at the forefront of developing such an 
approach. I hope that it will be the basis for setting a global 
standard which others could benefit from.
    Chairman Petri, members of the committee, thank you again 
for the opportunity to speak to you today about the future of 
aviation security. I ought to applaud your commitment to 
improving security and making the experience more enjoyable for 
our passengers. Certainly the future of flight is bright, and 
your collaboration is vital to our continued successes in 
industry. Thank you.
    Mr. Petri. Thank you.
    Ms. Shook?
    Ms. Shook. Good morning. Thank you. And thank you, Chairman 
Petri and Congressman DeFazio and members of the committee, for 
inviting me to participate in today's hearing.
    And just briefly, I wanted to acknowledge that today the 
skies are absolutely safer today than they were before 9/11 and 
before the onset of TSA. I am safer, as a crewmember. Our 
passengers are safer. You are all safer. Our country is safer.
    As a flight attendant, I do have a unique perspective to 
airport security screening. Our Nation's flight attendants are 
required to pass through the security checkpoints every time we 
go to work, sometimes multiple times a day. Before 9/11, 
passenger and baggage screening was conducted by private 
screening companies under contract to airlines, which created a 
myriad of screening experiences, to put it mildly. We could 
never be certain if our shoes, our jewelry, our hair clip, if 
any of that would trigger the detector. Would the airport 
screener want to search our bags, or would we speed through the 
checkpoint?
    I personally recall one specific incident where I was 
passing through security in Portland, Oregon, where a man was 
ahead of me in the line and he had a big knife on his hip, what 
I--well, it was a big knife to me. And then, you know, he 
passed through. And I said to him after I passed through 
security, ``That was a big knife. I am surprised it didn't 
alarm.'' And he chuckled and pulled two more smaller knives out 
of his pocket and a pocket full of change out of the other one 
and said, ``Oh, it happens a lot.''
    Well, today that kind of thing would rarely happen, would 
rarely happen. And so, I think it is important that we can 
thank our TSOs and the TSA for its diligence, and also the 
uniformity that is present at our security checkpoints today.
    We remember all too well the inconsistent security 
policies, passenger confusion, frequent language barriers of 
pre-9/11 screening. A federalized workforce creates 
consistency, can quickly communicate and adapt to emerging 
threats, with a greater ability to relay critical information 
across the system, or to a pinpointed location in times of 
emergency or crisis. A federalized workforce allows for 
efficient resolution through a central organization. Our 
airports and airplanes are much safer today, given TSA's access 
to intelligence data, driving that real-time security-based 
risk assessment.
    This is an important tool unavailable to private screening 
companies that could compromise the safety and security of 
passengers and crew, and we believe that any return to a 
bottom-line-driven system that puts security second to profits 
would be reckless and an unjustified regression from the TSA's 
mission to protect our skies. This is no way says that we don't 
need to be cost-conscious, because we all recognize that we do 
need to do that.
    Flight attendants understand the need for and support this 
layered approach to passenger screening, and the expansion of 
screening alternatives for our most trusted travelers. Over 4 
million passengers have been pre-screened and qualified for 
Pre-check, which we have heard about a bit before today. Also 
other screening programs that we have heard about, such as 
children under the age of 12, like my daughter seated behind me 
today, and those travelers over 75. And also we have heard 
about the common access cards for our servicemembers. So these 
are very good examples to recognize passengers that fall into 
the low-risk category.
    Another wonderful example, from my perspective, is the 
known crewmember program that the TSA has initiated. That is 
cost-effective, creates shorter lines, thus improving the 
passenger experience. Our first flight attendants began to go 
through the program this October. Flight attendants from many 
carriers, as well as pilots, are passing through this program. 
It has been a tremendous success. Millions of--there have been 
millions of pass-throughs through the checkpoints. In fact, 
over 2 million known crewmember screenings since its onset, 
which are 2 million fewer crewmembers with their bags that 
could not have to cut to the front of the line, the passenger 
queue, creating any potential bottlenecks.
    But the screening process is just one component of the 
passenger experience. For more than a decade, AFA has called 
for the adoption of reasonable and uniform limits for carry-on 
baggage. And a number of carry-on bags at security screenings, 
if we could reduce or standardize the size of that, we would 
have a better experience. With all of our work with the TSA, 
and with my own extensive traveling experience, I can say with 
certainty that there are more bags per person and larger bags 
per person since the airlines have began charging for checked 
bags. This has absolutely had an operational impact at the 
security checkpoints. And once--you know, I am on board, 
working on the flight, as well. It is an issue, security-wise, 
for us to be able to have our situational awareness. But it is 
important to recognize the effect of the passenger experience 
with regards to increased bags and increased size of the bags 
at the security checkpoint.
    Too, the global alliances, code share agreements, competing 
frequent travel programs, all of this, how does that all align? 
We want to make sure that the passenger experience, including 
the rules of carry-on baggage, are understood and 
comprehensive, and fall in line, whether you are traveling from 
Moscow, Idaho, or Moscow, Russia, that you can have somewhat of 
a consistency of approach.
    By the way, reducing the number of carry-on bags, it is 
estimated that savings in the savings of going through the 
checkpoints would be hundreds of millions of dollars.
    So, just to close out, I want to recognize that, thanks to 
the TSA passenger screening experience is better today by far, 
than it was before 9/11. This not only provides a standardized 
positive passenger experience with the federalized workforce. 
TSA also ensures that our Nation continues to have a chain mail 
security layer of protection, as opposed to a patchwork quilt 
of privatized independent contractors. Protecting our skies is 
a difficult job with a massive responsibility, but a job that 
the TSA, as a key partner in the fabric of our Nation's 
aviation security, is well-equipped to handle.
    Thank you. Happy to answer any questions.
    Mr. Petri. Thank you.
    Mr. Leocha.
    Mr. Leocha. Yes. Thank you, Chairman Petri and Mr. DeFazio, 
for giving us a seat at this hearing. I am glad that I got an 
aisle seat, too.
    Ms. Shook. I am in the middle.
    Mr. Leocha. I will present recommendations that take into 
account three significant changes in the security landscape 
since 9/11.
    Number one, our terrorism watch list capabilities have 
improved dramatically. Every American traveler is now screened 
for every single flight. For all intents and purposes, we all 
should be considered members of Pre-check.
    Two, all cockpits have been hardened, locked, and 
fortified. Even a .44 Magnum shot will not penetrate a cockpit 
door.
    Three, passengers now are aware of the possibility of 
having their plane used as a missile. They are not going to 
allow any terrorist to take over an aircraft.
    My name is Charlie Leocha. I am the director of the 
Consumer Travel Alliance. I have also been appointed to the 
Department of Transportation's passenger protection committee 
by Secretary LaHood, and to TSA's consumer advocacy 
subcommittee by Administrator Pistole.
    To much of the flying public, TSA, frankly speaking, is a 
boogeyman. Checkpoints, intimidating screeners, strip-search 
machines and pat-downs with no probable cause are dreaded. 
Newspaper editors report vitriolic reactions to stories about 
TSA from the public. Comments go through the roof. A recent 
story on Huffington Post by Christopher Elliot, our ombudsman, 
generated more than 1,000 comments, a record for his columns.
    Worse, TSA has become the butt of countless jokes. Even 
President Obama joked about TSA pat-downs in the State of the 
Union Address. And last Friday night I watched the Capitol 
Steps, a popular comedy group here in DC, and they performed a 
parody about how good the Government is at anticipated 
terrorist events after they occur.
    TSA is set up like a Maginot Line. This defensive system 
became the poster child about generals fighting the last war. 
Plus, it consumed such a large budget that other facets of the 
defense were underfunded. Today, TSA finds itself in almost an 
identical position: defending against old threats, in some 
cases threats that no longer exist. In addition, the focus on 
passenger screening has reduced funding to secure the 
vulnerable back ends of U.S. airports.
    The futility of searches at airports--it is best 
demonstrated by looking at the problems of drugs and weapons in 
our prison systems. Even our best efforts at Federal and State 
maximum security prisons fail. If maximum security prisons 
can't do it, it is folly to expect TSA to effectively interdict 
weapons and explosives from dedicated, trained terrorists.
    Here are some of our recommendations. The rest are included 
in the written testimony.
    Number one, revise the forbidden items list. Focus on 
explosives. Pocket knives, box cutters, tools, and so on are no 
threat, and cannot be used to break in to the cockpit.
    Two, decommission all whole-body scanners and go back to 
metal detectors for primary screening. Radiation effects are 
not documented. And half of the privacy protection software 
does not function. And this is according to TSA, itself. These 
machines have not proven to be better than metal detectors. In 
fact, some consider them to be worse. They take more space and 
they move slower.
    Number three, dress TSA security screeners in 
nonthreatening uniforms. Perhaps pastel polo shirts. They are 
security assistants. They are not law enforcement officers. 
Their job is to make sure that the traveling public is safe, 
not to force citizens into submission. Get rid of the starched 
shirts, the badges, and the bling.
    Four, the terrorist watch list already covers all 
travelers. All names are checked every time we fly. The new 
world of total passenger intelligence screening, combined with 
big data, makes the current invasive and intrusive TSA searches 
unnecessary. A metal detector will do. If a terrorist does make 
it to an airport with bomb materials intent on taking down a 
plane, more than a dozen layers of intelligence have failed.
    Years from now, when historians look back at our current 
TSA experience, they will ask, ``What the heck were they 
thinking?'' Just like our over-reactions, such as the 
internment of the Japanese during World War II, or McCarthyism 
in the fifties, subjecting the flying public to TSA's invasive 
searches seems unnecessary, unwise, and un-American.
    I welcome any questions.
    Mr. Petri. Thank you. Thank you all for your testimony. 
And, Mr. Leocha, I wish I could cosign it. I think it is quite 
wise.
    Mr. Leocha. Thank you.
    Mr. Petri. And I know you have thought a lot about it and 
had a lot of discussions on it. And I hope it has an impact. 
And your working on the advisory committee probably is a great 
help in that regard.
    Mr. Leocha. We are. And in regard to the advisory 
committee, part of the recommendations which we sent forward up 
to Administrator Pistole really focused on customer service, to 
treat passengers with a smile, to give us their customer--to 
improve the customer training, and so on. And one of the 
surprising things, to me, is I am kind of surprised that we 
didn't have any TSA people here. Because when I sit in these 
meetings, I am TSA'd to death. I have got, like, eight TSA 
people sitting there offering lots of different suggestions.
    But you know, whenever we ask--specifically asked in the 
committee for the TSA customer service training, and we are 
specifically told, ``Oh, that is classified,'' I mean, I just 
think that it is kind of sad that we are classifying 
everything, so that the people who are paying the bills and the 
committee members who have to pass legislation are not told the 
full stories.
    Mr. Petri. Well, you know, there is an old saying that a 
fish rots from the head. And the TSA's attitude toward this 
committee and probably--certainly doesn't counter the tone that 
is--they are setting at the top probably is reflected in some 
of the problems we have with the attitudes of the TSA 
inspectors and the way they are--have you run into some 
difficulties with--we have had some reports of difficulties 
between local law enforcement people and their jurisdiction at 
airports and TSA, even.
    Mr. Leocha. I haven't heard any specific complaints. We do 
know that there has to be some sort of relationship between TSA 
and law enforcement, since TSA specifically is not a law 
enforcement operation.
    Mr. Petri. Right.
    Mr. Leocha. So, once TSA brings law enforcement in, then it 
is--from the reports that we have gotten is that, basically, 
they don't come in in a very helpful manner. They are coming 
in, basically, on the side of TSA. And some of the reactions 
are similar to what your--one of your panel members or the 
members of the committee mentioned when going through the 
checkpoints with his son. And when you have a problem, you have 
got a problem.
    Mr. Petri. Mr. Dunlap, I did have one question for you, and 
that is that, as you know, the House earlier--and the Senate--
we finally took up and passed the bill that the Senate had 
worked on, which modification of the bill we had passed 
earlier, and it went to the President--he signed it, I believe, 
last week--having to do with the European Union's emission 
trading scheme and their overreaching under established 
international aviation rules.
    And my question is, is there anything further that we in 
Congress can do at this time, or any recommendation you have as 
to what could be done to protect the U.S. air carriers from 
this sort of effort by the European Union?
    Mr. Dunlap. Mr. Chairman, on part of this, with most of my 
portfolio being involved with security, I know that there are 
people more qualified than I from the industry that can 
specifically talk about environmental issues, and provide some 
very strong recommendations to this committee on that 
particular issue. And I am more than happy to get that input to 
you.
    I would say, in general, to address the broader topic, we 
certainly would continue to encourage both the TSA and DHS to 
continue working with international partners to make sure that 
things such as best practices for aviation security are shared, 
to make sure that intelligence is shared. And we also think 
that this is probably best done through formal processes and 
procedures. And as you put these procedures together, we think 
it is very important to have the industry involved. And we 
would be willing participants in this dialogue.
    And, frankly, over the last several years, we have seen 
better outreach by the TSA. We have seen greater cooperation 
between TSA and their international partners. And we 
specifically think that the outreach that TSA has done, and the 
commitments they have made to the International Civil Aviation 
Organization have immeasurably increased security.
    So, that is what I could tell you from a security side. And 
we will get more input to you, sir, from other parts of the 
industry and the organization on specifically the EUETS.
    Mr. Petri. And I think in your statement and testimony you 
referred to ground-breaking or innovative efforts being done in 
the UK to attempt to do a better, more efficient, and effective 
job in the security area. Could you expand on that a little 
bit? Are they incorporating in it any of the concerns that Mr. 
Leocha and others have mentioned? Or is it a parallel but not 
responsive approach to his concerns?
    Mr. Dunlap. Well, I think, Mr. Chairman, what they are 
trying to do is put in an over-arching umbrella framework that 
has legislative and regulatory options to address many of those 
types of issues that Mr. Leocha had talked about. And that is 
based on the fact that you can really have two regulatory 
systems.
    One is very prescriptive, and it says, ``You use this 
machine this way, and you conduct these procedures the same way 
every time, every way, regardless of the airport, regardless of 
the airline, regardless of whether you are dealing with a 
flight attendant, a passenger, or a pilot.'' And that doesn't 
necessarily lend itself to the risk-based approaches that we 
have been talking about. What really does is an outcome-focused 
risk-based security framework, and that is what the UK is 
piloting right now.
    And what it says is a Government or a legislature should 
figure out what the outcome is. So, for instance, if the 
outcome is we don't want bombs on aircraft, then whether you 
are talking about an airport, an airline, or our employees, 
that they should be allowed, under strict supervision, to 
figure out what is the most effective way to get that objective 
attained. And we think that allows for things like a checkpoint 
of the future.
    We think it allows for a future where you are not going to 
have passenger complaints talking about how they were treated 
at checkpoints. And I think, most importantly, Mr Petri, what 
it will do is it will increase the overall level of security, 
and we will be able to find those threats that we know that are 
on the horizon that the current system that we have is going to 
have a great deal of trouble handling.
    Ms. Shook. May I just say--and thank you for that--I just--
as a citizen, I also want to be mindful that, while it is 
important that we have these systems to prevent any kind of 
threats, that we are mindful of our civil liberties. And 
obviously, I know that we all share that concern, to be able to 
find that balance to make sure that, you know, our skies are 
safe as we are traveling, but also that individuals--you know, 
that we can protect the civil liberties. I don't know the last 
time anyone here has been over in England, but, you know, you 
are definitely on camera everywhere you go.
    And I think that it is also--just on somewhat of an aside--
just on the optics of travel, it is a good example of what is, 
if you fly out of the UK, on the differing standards--for 
example, on the 311. So there is just--it can be a different 
level. So you can leave the U.S. and have one experience when 
you fly overseas, and then have a different level of, you know, 
what you can bring on when you are traveling back, because--so 
I just wanted to make those two points.
    Mr. Petri. Yes?
    Mr. Leocha. I just wanted to add one other thing, in terms 
of the lessons that we learned from our foreign partners.
    One of the things that our foreign partners do not have 
that we do have is our terrorist watch center. And we have an 
amazing intelligence system right now which allows us to screen 
every single American flying. And they don't do that in Europe. 
They can't do that in Europe. They have to cross so many 
different borders, it just would be impossible.
    So, we have a benefit where we basically pre-screen all of 
our passengers today. We are doing it right now. And--but 
nobody seems to be taking that into account, even though it is 
costing, you know, billions of dollars to perform. And I think 
it is important that, when we look at our entire operation, we 
take--you know, we can step back and we can say that probably 
90 percent or 95 or 98 percent of our passengers are pre-
checked. They are not a threat. And we always know it is the 1 
percent, it is a small number.
    But we also know that you don't find them at the very last 
minute; you find them through constant vigilance and through 
intelligence and through good police work, and working together 
with foreign countries. And that is where we have gotten far, 
far better. And I don't think that we give real credit to those 
people, and what a great job they are doing in keeping us safe.
    Mr. Petri. Thank you. Mr. Ribble?
    Mr. Ribble. Thank you, Mr. Chairman. And I want to thank 
the panel for being here today. I want to start with Mr. 
Dunlap.
    You mentioned in your testimony--you talk about the 
operational test and evaluation program. And you cite some 
partners in Europe at Geneva, Heathrow, and Amsterdam. Why are 
there no U.S. airports participating?
    Mr. Dunlap. So, Congressman, let me first start by saying 
the TSA and the Department have been great supporters of our 
initiative. But, frankly, I think there also has to be a 
realization that an initiative of this magnitude has to prove 
itself.
    And so, what we have done over the past year is assembled 
the expertise, put the good ideas on paper, assembled the 
blueprints, and have enough credibility where we can not only 
prove to the Heathrows, the Genevas, and the Amsterdams of the 
world, but also Los Angeles and Newark and New York, that what 
we have is a credible program. And I am very pleased to note 
that Gina Marie Lindsey, from Los Angeles World Airports, is 
one of our board members.
    So, we are building that critical mass. And we really 
believe that what we do have now, whether it is a 2014 near-
term checkpoint, 2017 intermediate, or 2020 long range, is 
something that there is a great deal of credibility built 
around it, and a great deal of momentum behind it. And I do 
believe that, based on the administrator's support, that we can 
get an airport. But it would always help if the Congress could 
also encourage TSA and DHS to do the same thing.
    Mr. Ribble. Yes, it is unfortunate that we are allowing 
Europe to lead in this regard. And I have flown through both 
Heathrow and Amsterdam on numbers of occasions. These are large 
airports, sophisticated airports. So it is just disappointing.
    Ms. Shook, is it--am I pronouncing that correctly?
    Ms. Shook. Yes.
    Mr. Ribble. Is this your daughter back here with you?
    Ms. Shook. This is my daughter, Isabelle.
    Mr. Ribble. Well, Isabelle, welcome to the Congress today. 
It is nice to have you here.
    My question for you--and I want to--for full disclosure, my 
daughter-in-law is a flight attendant for Southwest Airlines.
    Ms. Shook. I did not know that, great.
    Mr. Ribble. I am well aware of some of the work that they 
do, and I appreciate the work that flight attendants do.
    However, in your testimony you state, ``A federalized 
workforce creates consistency. And, thus, greater security 
throughout our Nation's airports is a key component of a 
multilayered aviation security system.'' Under that basis, 
should we not federalize flight attendants?
    Ms. Shook. I think that there is--I think it is a great 
question, so thank you for that. I have never been posed that 
question.
    Mr. Ribble. If Federalization was a solution, then--or----
    Ms. Shook. Well, I mean----
    Mr. Ribble. Or are you good at your job because you are 
airline and the industry trains you, teaches you, holds you 
accountable? Is it the system that you are in, rather than 
Federalization that worked? And could not we have done the 
exact same thing with checkpoints?
    Ms. Shook. So we do have the same--we have a standardized 
training that, you know, we have to go through. Obviously, 
through an initial training, we have our annual recurrent 
training, we obviously have the, you know, sensitive bulletins 
and all that. But my job, working for an individual airline, is 
different than what the checkpoint is that you go through.
    So, for example, if I--you know, it is mentioned that I am 
a flight attendant for Alaska Airlines. If someone chooses to 
fly Alaska Airlines over a competitor, they are doing that for 
a reason. However, that passenger would expect, if they are 
checking in to Seattle, flying to Washington, DC, and when they 
fly back home to Seattle, that they would have a consistency in 
what that experience would be like in passing through the 
security checkpoints.
    So, while I can appreciate what you are saying, you know, 
with a question on should we have federalized flight 
attendants, you know, we do have that standardized national 
training and, you know, to make sure that we got that layer. 
But I feel very strongly that it is important to have a 
federalized workforce with the TSA to be able to have that 
access to that real-time data that can be passed immediately.
    Mr. Ribble. Yes. Well, I can tell you, as a passenger--and 
I fly a lot, just about every weekend, I know that I have now 
gotten on and off airplanes about 150 times this year--that I 
feel very safe getting on an airplane, not because of the 
Federalization of the security system, but because of the high 
level of training and capability of the pilots and flight 
attendants that are--and the maintenance workers that are not 
Federal employees, doing their job just as well, under a highly 
regulated industry. And so, just a comment there.
    And then----
    Ms. Shook. Let me just say----
    Mr. Ribble. Sure.
    Ms. Shook. Let me just respond to that. Thank you. I 
appreciate that. But I think it is a layer, right? So they are 
all layers. So certainly the flight attendants, you know, are 
the last line of defense in our Nation's aviation security, 
should all the other measures fail. You know, pilots, we have 
got two pilots for a reason, should something catastrophic 
happen to one. Two engines for a reason. So we need to have 
this layered approach to security.
    But I feel much more comfortable knowing that the workforce 
that is the TSA, in my experience with extensive travel, having 
a pre-TSA world for security checkpoints and a post-TSA world 
for security checkpoints, night and day. Night and day, in my 
own personal experience.
    Mr. Ribble. Sure, and I am sure--and I would say that there 
is a lot of differences in my own experience, as well. I was a 
100,000-mile flier prior to coming to Congress in my business 
world. However, a lot of the changes would have happened 
spontaneously, anyway, as a result of 9/11, outside of 
Federalization. Otherwise, under that policy, or to that--under 
that mindset, we should just federalize the entire industry.
    Mr. Leocha, some of the stuff I agree with you and some of 
the stuff I don't. One of the concerns I do have with your 
recommendation, number one, is the use of having knives or box 
cutters or the dismissal of those on airplanes because we now 
secure pilot doors. It is nice to secure pilot doors, but I 
would prefer that the passenger sitting next to me doesn't have 
a box cutter. And I would tell you that my daughter-in-law 
would have no ability to escape out of an airborne aircraft. If 
someone with a box cutter is walking around New York City, I 
can run away, as could she. But you can't run away from an 
airplane. How do you respond to that?
    Mr. Leocha. Well, obviously, all of my friends and people 
that I talk with don't agree with me on everything I say. So 
that is my first response.
    But basically, we are in a situation--if we are on the 
Metro and--or you are on a bus in Fort Worth, I mean, who knows 
who is carrying what? You--I just think that, at this point, 
the reason that we have TSA is to keep our planes from being 
used as missiles. And secondly, now, it is to keep explosives 
off the aircraft. Those are the main things we are looking for.
    And when we first came through and we set up TSA, we didn't 
have hardened cockpits and we didn't have the levels of 
intelligence that we have today. So it was really a different 
world. And we set up TSA to deal with that world. But right 
now, you are right. I mean you could say that you don't want to 
have someone sitting next to you on an airplane with a knife. 
Then again, you don't want to be sitting next to someone on the 
Metro with a knife, or on a bus with a knife, or on a ferry 
boat. I guess you could dive overboard.
    Mr. Ribble. Yes.
    Mr. Leocha. But, I mean, it is just that right now that is 
not a threat that we are looking after. And I don't think that 
there has ever been a report--I think we--at a roundtable once 
we talked about this--there has never been a report of a knife 
fight on an airplane before 9/11 or since.
    Mr. Ribble. Yes.
    Mr. Leocha. It is just--I mean we can't protect against 
everything. And everything we protect against costs us. Once 
again, when we put it out across the country, it is an 
incredibly big effort. It is very invasive. And I don't think 
it is really necessary.
    Mr. Ribble. I want to--yes, go ahead. I will give you the 
final word.
    Ms. Shook. Well, I used to take my knife to work, OK? So I 
miss the days where I could cut up a mango as a fresh snack. I 
miss traveling with my Leatherman. I am much more thankful to 
know that I don't have a knife, but then nobody else has a 
knife on the plane. So, while I miss that aspect of being able 
to travel with that, I feel much more confident to know that 
that potential threat does not exist.
    Mr. Ribble. All right. Thank you very much.
    Ms. Shook. So I concur with your sister-in-law. Thank you.
    Mr. Ribble. Mr. Chairman, I yield back.
    Mr. Petri. Thank you. As you know, being from Wisconsin, we 
used to have an airline called Midwest Express that put knives 
in front of every passenger on every plane for years, and who 
never really had any particular problem when they were provided 
by the airline, let alone having to screen against them. So we 
have to get sort of real about some of this stuff.
    In any event, we thank you very much for your testimony, 
for your response to our questions. And this hearing is 
adjourned.
    [Whereupon, at 11:48 a.m., the subcommittee was adjourned.]

</pre></body></html>
